      Oversight of Performance-Based
                 Contracts

                       Audit Report




                                      June 17, 2013

Report Number SM-AR-13-002
                                                                            June 17, 2013

                                            Oversight of Performance-Based Contracts

                                                          Report Number SM-AR-13-002




BACKGROUND:
Performance-based contracting                  additional contracts contained all
emphasizes that all aspects of an              attributes except a statement of
acquisition be structured around the           objectives.
purpose of the work to be performed as
opposed to how the work is performed.          Officials did not see a business need to
It is designed to ensure that contractors      track performance-based contracts,
are free to determine how to meet              could not explain why they were not
performance objectives, that appropriate       used, and indicated there was a lack of
performance quality levels are achieved,       training and clear guidance on the use
and that payment is made only for              of these contracts. By not tracking and
services that meet these levels.               promoting the use of
Performance-based contracts contain            performance-based contracts, the
four attributes: a statement of                Postal Service could miss opportunities
objectives that describes the desired          to increase revenue and efficiencies.
outcome, measurable performance
metrics, a quality assurance plan to           Lastly, we identified six improperly
monitor the contractor’s performance,          coded contracts valued at $120 million
and incentives to encourage better             and one with about $18 million in
performance. Our objective was to              improperly certified payments.
assess U.S. Postal Service controls for        Inaccurate data and inadequate contract
overseeing performance-based                   oversight increases financial risk to the
contracts.                                     Postal Service. Management corrected
                                               the six incorrectly coded contracts to
WHAT THE OIG FOUND:                            reflect the correct contract type and
Postal Service contracting officials did       enforced internal controls for certifying
not have adequate controls to oversee          invoices on the other contract.
performance-based contracts.
Specifically, they did not track these         WHAT THE OIG RECOMMENDED:
contracts and did not always take              We recommended management
advantage of contracts benefits.               develop a process to identify
Although officials did not track               performance-based contracts, provide
performance-based contracts, we                guidance and training on the use of
identified six contracts with incentives       these contracts, correct miscoded
valued at $602 million. We also                contracts, and enforce controls for
identified two additional contracts that       certifying invoices.
could have been awarded as
performance-based but were not. These          Link to review the entire report
June 17, 2013

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Oversight of Performance-Based Contracts
                           (Report Number SM-AR-13-002)

This report presents the results of our audit of the Oversight of Performance-Based
Contracts (Project Number 12WG010CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Trent Ensley
    Susan A. Witt
    Corporate Audit and Response Management
Oversight of Performance-Based Contracts                                                                      SM-AR-13-002




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Performance-Based Contract Tracking ........................................................................... 2

Use of Performance-Based Contracts ............................................................................. 2

Contract Data Integrity .................................................................................................... 3

Contracting Officer Representative Roles and Responsibilities ...................................... 4

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Scope Limitation .......................................................................................................... 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Monetary and Other Impacts....................................................................... 9

Appendix C: Management's Comments ........................................................................ 10
Oversight of Performance-Based Contracts                                       SM-AR-13-002




Introduction

This report presents the results of our audit of the Oversight of Performance-Based
Contracts (Project Number 12WG010CA000). Our objective was to assess controls for
overseeing performance-based contracts. This self-initiated audit addresses operational
risk. See Appendix A for additional information about this audit.

Performance-based contracting emphasizes that all aspects of an acquisition be
structured around the purpose of the work to be performed as opposed to how the work
is performed. It is designed to ensure that contractors are free to determine how to meet
performance objectives, that appropriate performance quality levels are achieved, and
that payment is made only for services that meet these levels. These contracts contain
four attributes: a statement of objectives that describes the desired outcome,
measurable performance metrics, a quality assurance plan to monitor the contractor’s
performance, and incentives to encourage better performance.

Conclusion

U.S. Postal Service officials did not have adequate controls to oversee performance-
based contracts. Specifically, contracting officials did not track this contracting method
in their data system and did not always take advantage of the benefits of this approach.

Although officials did not track these contracts, we identified six performance-based
contracts with incentives valued at $602 million. We also identified two additional
contracts that could have been awarded as performance-based contracts but were not.
These contracts contained incentives, performance metrics, and a quality assurance
plan. However, these additional contracts were missing a statement of objectives.

Officials did not see a business need to track performance-based contracts, could not
explain why performance-based contracting was not used, and indicated there was a
lack of training and clear guidance on the use of this contracting approach. By not
tracking and promoting the use of performance-based contracts, the Postal Service
could miss opportunities to increase revenue and efficiencies.

Lastly, we identified six improperly coded contracts valued at $120 million and about
$18 million in improperly certified payments. Inaccurate data and inadequate contract
oversight increases financial risk to the Postal Service. Management corrected the six
incorrectly coded contracts to reflect the correct contract type and enforced internal
controls for certifying invoices on the other contract.




                                            1
Oversight of Performance-Based Contracts                                                           SM-AR-13-002



Performance-Based Contract Tracking

Contracting officials did not track performance-based contracts in their Contract
Authoring and Management System (CAMS).1 There is no code or designator in CAMS
to identify these contracts. By surveying officials and reviewing computerized contract
data, we identified six performance-based contracts with incentives valued at
$602 million. One contract for building management and maintenance at a postal facility
contained a statement of objectives outlining the services needed and the supplier’s fee
was adjusted, based on the supplier's performance. Specifically, the supplier’s
performance was evaluated quarterly and when performance exceeded established
performance levels, the supplier received a percentage increase to its fee. This
contracting approach allowed the supplier the opportunity to increase its profits and the
Postal Service to achieve better supplier performance. All six contracts identified
provided adequate evidence of performance monitoring and justifications for incentive
payments.

There is no criterion to require an identification code for performance-based contracts
and Postal Service officials indicated they do not see a business need to specifically
identify these contracts in their contracting systems. However, in performance-based
contracts, the supplier can provide the Postal Service with specific benefits, such as
cost reduction or revenue generation. The inability to track performance-based
contracts within contracting systems creates an increased risk that the Postal Service
may not be identifying opportunities to use this contracting method to maximize revenue
and efficiencies or effectively manage these types of contracts.

Further, federal agencies regulated by the Federal Acquisition Regulation (FAR)2 are
required to identify the use of performance-based acquisitions. The Federal
Procurement Data System (FPDS)3 is the primary tool for tracking this information
annually to evaluate the government's use of performance-based contracts. Although
the Postal Service is not subject to FAR, this information is provided as a best practice.

Use of Performance-Based Contracts

We identified two contracts that could have been set up as performance-based. While
both contained performance metrics, incentives, and a quality assurance plan —
elements of performance-based contracting — they did not include a statement of
objectives. A statement of objectives allows suppliers the flexibility to develop
cost-effective solutions and the opportunity to propose innovative alternatives for
meeting these objectives. One contract for                                             did
not contain a statement of objectives to outline the desired result, which would have
allowed the supplier to use its experience in                      to propose potential
cost-effective solutions to address the desired result.

1
  A Postal Service application that provides comprehensive management for all aspects of the procurement process.
2
  The FAR is a set of principles that govern the government procurement process. It regulates the purchasing of
goods and services by the government.
3
  FPDS is the central repository of information for U.S. federal government-wide procurement data.


                                                        2
Oversight of Performance-Based Contracts                                                                     SM-AR-13-002




The contracting officers (COs) for these contracts could not explain why
performance-based contracting was not used because they were not the original COs
and the rationale was not documented in the contract files. Although COs are not
required to use performance-based contracting, policy4 encourages it because of the
potential benefits, such as cost reduction or revenue generation.

Contracting officials indicated that there has been no recent internal training on
performance-based contracting methods. Management also indicated during the exit
conference that current policy on the use of performance-based contracting is not as
clear as it could be and they will look into revising it.

Without increased focus and training on performance-based contracts and ways to
implement their use, Postal Service contracting officials may be missing opportunities to
find better ways of doing business. By using the performance-based contracting
approach, the Postal Service has an opportunity to further the goals of streamlining and
reinvention because contractors can be given more latitude for determining methods of
performance, with more responsibility for performance quality.

Contract Data Integrity

Postal Service COs incorrectly coded six contracts valued at $119,515,234 as
fixed-price incentive contracts5 in CAMS when the contracts did not include incentives.
COs stated that this occurred because the contract types were misclassified. Training
provided in 2011 addressed contracting officials’ roles and responsibilities to ensure
data integrity. Specifically, the buyer or CO is responsible for ensuring that contract
information is complete and accurate. Because employees did not accurately record or
complete contract data in CAMS, Supply Management officials could not accurately
report on the contract types.

Unreliable and inaccurate data increase risk to the Postal Service, impacting its ability to
effectively support management’s decisions and to assist officials across multiple
Supply Management portfolios.6 We are reporting $119,515,234 in data reliability errors
due to the six misclassified contracts (see Appendix B for details).

During our audit, COs performed corrective action by changing the contract type for four
of the six contracts. In addition, one contract was updated as a new type when it was
renewed in December 2012 and the remaining contract was not updated because it
expired in January 2013. However, the CO is in the process of issuing a new contract
with the correct contract type.

4
  Supplying Principles and Practices, Section 2-18.9, Performance-Based Contracts. Supplying Principles and
Practices are advisory and illustrative of approaches that Postal Service employees may generally use but are
intended to provide for flexibility and discretion in their application to specific business situations. Consistent with that
intent, the Supplying Principles and Practices create no rights, substantive or procedural, enforceable against the
Postal Service.
5
  A fixed-price incentive contract provides an incentive to adjust the profit to establish the final contract price.
6
  Supply Management has five portfolios that purchase goods and services for the Postal Service.


                                                              3
Oversight of Performance-Based Contracts                                                                 SM-AR-13-002




Contracting Officer Representative Roles and Responsibilities

The CO should strengthen enforcement of the contracting officer representative's (COR)
roles and responsibilities for the Postal Automated Redirection System contract.
Specifically, we found the COR did not retain copies of certified invoices in the COR file7
to validate whether the Postal Service properly certified 54 payments totaling about
$78 million, from September 17, 2010 through September 26, 2012. The CO stated that
he relied on the COR to maintain copies of the certified invoices; however, during our
fieldwork the COR could not locate his copies of the certified invoices for this contract.

Postal Service officials provided us with updated information after our fieldwork.
Specifically, the CO provided documentation indicating that all 54 invoices were
certified. However, a program manager without appropriate COR designation certified
28 of the 54 invoices totaling about $18 million in Postal Service payments.

Invoices must be approved by the office specified in the contract;8 however; the contract
does not specify who should approve invoices. The CO stated that he designates
invoice certification and retention responsibilities for the contract through a COR
delegation letter and it was an oversight on his behalf that he allowed the program
manager to perform COR responsibilities on the contract without an executed letter of
appointment.

Inadequate enforcement of COR roles and responsibilities puts the Postal Service at
risk of paying unnecessary or improper costs. Supply Management staff must enforce
internal controls for certifying invoices to ensure proper payment for services received.
We are reporting $18,000,213 as unsupported questioned costs because an individual
who was not properly designated with an executed letter of appointment on one contract
certified 28 invoices (see Appendix B for a detailed analysis). During our audit, the CO
took corrective action to issue a COR letter of appointment and had the current COR
sign it.

Recommendations

We recommend the vice president, Supply Management:

1. Develop a process to identify and track performance-based contracts.

2. Ensure that clear policy guidance is provided for contracting officers when
   considering the use of performance-based contracting.

3. Provide training to contracting officers on the use of performance-based contracting
   methods.

7
   The COR letter on file at the time of our review required the COR to retain copies of certified invoices in the COR
files.
8
   Supplying Principles and Practices, Section 5-11.3, Approve Invoice.


                                                            4
Oversight of Performance-Based Contracts                                     SM-AR-13-002




4. Update the Contract Authoring Management System to ensure the six incorrectly
   coded contracts reflect the correct contract type.

5. Enforce internal controls for certifying invoices on the Postal Automated Redirection
   System contract to ensure properly designated contracting officials certify payments
   for services received.

Management took corrective action to address recommendations 4 and 5 during our
audit; therefore, we are closing these recommendations with the issuance of the report.

Management’s Comments

Management generally agreed with the findings in the report and the impact associated
with recommendations 4 and 5, but did not agree with recommendation 1.

Regarding recommendation 1, management disagreed with the necessity for
establishing a process for tracking contracts using performance-based methods.
Management stated that they are identifying opportunities to streamline work and create
efficiencies in their contracting process. Management further stated that, since our
report noted that all six contracts identified had adequate evidence of performance
monitoring and justifications for incentive payments, they determined that tracking a
method used within a contract type does not add value or provide efficiencies within
their purchasing process.

Regarding recommendation 2, management stated that they believe the Supplying
Principles and Practices had well-defined guidance for performance-based contracting
arrangements, but agreed to further research performance-based methods and
determine whether any change in their guidance is necessary. The targeted
implementation date is January 2014.

Regarding recommendation 3, management agreed to provide further communication to
contracting officials on performance-based methods, with a target implementation date
of January 2014.

Regarding recommendation 4, management took corrective action by updating the six
incorrectly coded contracts in the CAMS.

Regarding recommendation 5, management stated that invoices were determined to be
properly certified for payment but took corrective action to ensure properly certified
invoices are maintained. Management also updated the contracting officer’s
representative appointment letter. See Appendix C for management’s comments, in
their entirety.




                                            5
Oversight of Performance-Based Contracts                                    SM-AR-13-002



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to recommendations 2, 3, 4, and 5 and corrective actions should
resolve the issues identified in the report. Management disagreed with recommendation
1. Although performance-based contracts are tracked at the CO and commodity manger
level, they are not tracked within a contracting system, preventing upper management
from having a global view of how this contracting method is being used; therefore, they
may not be able to identify opportunities to use this contracting method to maximize
revenue and efficiencies or effectively manage these types of contracts. We believe
management should implement recommendation 1 to develop a process to identify and
track performance-based contracts; however, we will not pursue the formal audit
resolution for this recommendation. We will address this issue in a future review on
contracting internal controls; therefore, we are closing this recommendation with the
issuance of this report.

The OIG considers recommendations 2 and 3 significant and, therefore, requires OIG
concurrence before closure; consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

Corrective actions in response to recommendations 4 and 5 have been completed;
therefore, we are closing these two recommendations with the issuance of this report.




                                           6
Oversight of Performance-Based Contracts                                           SM-AR-13-002



                            Appendix A: Additional Information

Background

Performance-based contracting emphasizes that all aspects of an acquisition be
structured around the purpose of the work to be performed as opposed to how the work
is performed. It is designed to ensure that contractors are free to determine how to meet
the performance objectives that appropriate performance quality levels are achieved,
and that payment is made only for services that meet these levels. These contracts
contain four attributes: a statement of objectives that describes the desired outcome,
measurable performance metrics, a quality assurance plan to monitor the contractor’s
performance, and incentives to encourage better performance. A portion of the contract
price is linked to a series of key performance indicators that the supplier is responsible
for meeting. Performance-based contracting necessitates a considerable amount of
monitoring to determine whether performance measures are being met and payment is
justified.

The Postal Service’s Supplying Principles and Practices identifies fixed-price incentive
contracts as the most frequently used contracts in performance-based contracting.
Fixed-price incentive contracts involve adjusting profit and establishing the final price by
applying a formula based on the relationship between the total final negotiated cost and
the total target cost. The profit for the supplier varies inversely with the cost, so this type
of contract incorporates an incentive for the supplier to control costs.

CAMS is an application used to facilitate the solicitation, award, and administration of
supplies, services, and transportation contracts. CAMS interfaces with other Postal
Service systems to provide data for internal transparency to manage contracts and
spend data.

Objective, Scope, and Methodology

Our objective was to assess controls for overseeing performance-based contracts. We
reviewed six active performance-based incentive contracts as of August 2012.

Scope Limitation

We identified the six contracts by surveying officials and reviewing computerized
contract data. Because the Postal Service does not track performance-based contracts
in CAMS, we cannot be certain that we identified all performance-based contracts with
incentives.

To accomplish our objective we:

   Obtained and reviewed Postal Service criteria, guidelines, procedures, and contract
    terms for performance-based contracts.



                                               7
Oversight of Performance-Based Contracts                                        SM-AR-13-002



   Met with Supply Management portfolio managers, determined their use of
    performance-based contracts, and obtained a list of performance-based contracts
    with incentives.

   Interviewed Postal Service COs and reviewed the six contracts to determine whether
    there is evidence of performance monitoring and whether performance measures
    are being met and payment is justified.

   Performed additional work to identify high dollar value contracts in the Mail and
    Operational Equipment and Commercial Products and Services portfolios that could
    have benefitted from a performance-based contracting approach.

We conducted this performance audit from August 2012 through June 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on April 17, 2013, and included their
comments where appropriate.

We assessed the reliability of performance-based incentive contract data by comparing
the information obtained through the survey of portfolio managers to information in
CAMS. We determined that the data were sufficiently reliable for the purposes of this
report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit
issued during the past 3 years.




                                             8
Oversight of Performance-Based Contracts                                                             SM-AR-13-002



                            Appendix B: Monetary and Other Impacts



                                              Monetary Impacts

           Recommendation                    Impact Category                              Amount
                 5                     Unsupported Question Cost9                        $18,000,213

                                                Other Impacts

           Recommendation                      Impact Category                            Amount
                 4                     Data Integrity10                                 $119,515,234


The $119,515,234 represents the value of the six contracts incorrectly coded in CAMS
as fixed-priced incentive. Unsupported questioned costs totaling $18,000,213
represents 28 invoice payments in which an individual who was not properly designated
as the COR certified invoices. During our audit, contracting officials took corrective
action to address recommendations 4 and 5.




9
  A weaker claim and a subset of questioned costs. Claimed because of failure to follow policy or required
procedures, but does not necessarily connote any real damage to Postal Service.
10
   Data used to support management decisions that is not fully supported or completely accurate. This can be the
result of flawed methodology; procedural errors; or missing or unsupported facts, assumptions, or conclusions.


                                                         9
Oversight of Performance-Based Contracts                      SM-AR-13-002



                          Appendix C: Management's Comments




                                           10
Oversight of Performance-Based Contracts        SM-AR-13-002




                                           11
